TaN |

C@QCKLE

2311 Douglas Street Le ga 1 Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-123

SHARONELL FULTON, ET AL,,
Petitioners,

v.
CITY OF PHILADELPHIA, PENNSYLVANIA, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the Ist day of June, 2020, send out from
Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF THE NATIONAL ASSOCIATION OF EVANGELICALS AS
AMICUS CURIAE IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been
served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the
following:

SEE ATTACHED
To be filed for:
CARL H. ESBECK TIMOTHY BELZ
R. B. PRICE EMERITUS Counsel of Record
PROFESSOR OF LAW OTTSEN, LEGGAT & BELZ, L.C.
Hulston Hall, Room 209 112 South Hanley, Suite 200
820 Conley Avenue St. Louis, Missouri 63105
Columbia, Missouri 65211 (314) 726-2800
(573) 882-6543 tbelz@olblaw.com

esbeckc@missouri.edu

Subscribed and sworn to before me this 1st day of June, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

saree | Kence. 0. Leas Cndeao-hl. Bhlh

Z-
Notary Public Affiant 39825

My Comm. Exp, September 8, 2020 |

 

 
 

Attorneys for Petitioners

Mark Leonard Rienzi The Becket Fund for Religious Liberty 202-507-0834
Counsel of Record 1200 New Hampshire Ave., NW
Suite 700

Washington, DC 20036

rienzi@law.edu

Party name: Sharonell Fulton, et al.

 

Attorneys for Respondents
Leslie Cooper American Civil Liberties Union 212-519-7815
Counsel of Record 125 Broad Street
New York, NY 10004

Icooper@aclu.org
Party name: Intervenor Support Center for Child Advocates and Philadelphia Family Pride

Neal Kumar Katyal Hogan Lovells US LLP 202-637-5528
Counsel of Record 555 Thirteenth St., N.W.
Washington, DC 20004

neal.katyal@hoganlovells.com

Party name: City of Philadelphia, Department of Human Services for the City of Philadelphia,
Philadelphia Commission on Human Relations

 

 

 
